March 16, 2021
Danny Bickell, Esq.
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street N.E.
Washington, D.C 20543
Re:

Alberto Julio Garcia v. State of Mississippi, No. 20-7238 (Capital Case)

Dear Mr. Bickell,
I serve as counsel of record for Respondent the State of Mississippi in the abovecaptioned case. The Petition for Writ of Certiorari was docketed on Wednesday, February
24, 2021. Unless extended by the Court, Mississippi’s responsive deadline is Friday, March
26. For the reasons that follow, and under Supreme Court Rule 30.4, I respectfully request
an extension of thirty-one (31) days, to and including Monday, April 26, within which to
file Mississippi’s Response in Opposition.
On behalf of Mississippi Attorney General Lynn Fitch, I have been working
diligently to provide the Court with a complete Response in Opposition. An extension of
time is necessary because I have a number of competing obligations within the coming
weeks—including an evidentiary hearing in another capital post-conviction matter and
the preparation attendant to it. The ongoing public-health crisis has also disrupted
productivity.
This request is not made to cause undue delay or for any other improper purpose.
I have contacted counsel for Petitioner Alberto Julio Garcia, who represented that he does
not oppose this request. For these reasons, I respectfully request a thirty-one-day
extension of time, to and including Monday, April 26, within which to file Mississippi’s
Response in Opposition.
Very truly yours,
/s/ Candice Leigh Rucker
Candice Leigh Rucker
Special Assistant Attorney General
Counsel of Record
Cc:

Andre de Gruy, Counsel for Petitioner

